<html>
<title> - MASS MIGRATION IN EUROPE: ASSIMILATION, INTEGRATION, AND SECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




  MASS MIGRATION IN EUROPE: ASSIMILATION, INTEGRATION, AND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2018

                               __________

                           Serial No. 115-123

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-966PDF                     WASHINGTON : 2018                                  
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
TED POE, Texas                       BRAD SHERMAN, California
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
F. JAMES SENSENBRENNER, Jr.,         WILLIAM R. KEATING, Massachusetts
    Wisconsin                        DAVID N. CICILLINE, Rhode Island
FRANCIS ROONEY, Florida              ROBIN L. KELLY, Illinois
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah





























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Robin Simcox, Margaret Thatcher Fellow, Margaret Thatcher 
  Center for Freedom, Davis Institute for National Security and 
  Foreign Policy, The Heritage Foundation........................     3
Marta Vrbetic, Ph.D., global fellow, Global Europe Program, 
  Woodrow Wilson International Center for Scholars...............     8
Victor Davis Hanson, Ph.D., Martin and Illie Anderson Senior 
  Fellow, Hoover Institution, Stanford University................    17
Mr. Wa'el Alzayat, chief executive officer, Emgage...............    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Robin Simcox: Prepared statement.............................     5
Marta Vrbetic, Ph.D.: Prepared statement.........................    10
Victor Davis Hanson, Ph.D.: Prepared statement...................    19
Mr. Wa'el Alzayat: Prepared statement............................    24

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats:
  The EU response to the migration crisis........................    56
  Hungarian Ambassador letter to the Honorable Dana Rohrabacher 
    dated April 24, 2018.........................................    65
  ``Post-Brexit, Europeans More Favorable Toward EU,'' by Bruce 
    Stokes, Richard Wike and Dorothy Manevich, Pew Research 
    Center, June 2017............................................    67
Marta Vrbetic, Ph.D.: Material submitted for the record..........    68

 
   MASS MIGRATION IN EUROPE: ASSIMILATION, INTEGRATION, AND SECURITY

                              ----------                              


                        THURSDAY, APRIL 26, 2018

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. Whereas, I have been informed that the 
ranking member will be here momentarily and I have been given 
permission by the staff and by Ms. Kelly, as well, that we can 
proceed and he will be joining us.
    Good afternoon. I call this hearing to order. The 
subcommittee's topic for this afternoon is mass migration in 
Europe, its history, the current reality, the consequences of 
migration and what those consequences mean to the transatlantic 
relationship.
    Let me say that from the start what this hearing is not and 
it is not and cannot simply be a discussion of recent Syrian 
refugees going, pouring into Europe. Yes, that is part of the 
discussion, but it is only one part of the discussion. This is 
a big topic, one with a history which stretches back decades 
and in terms of migration perhaps even centuries.
    We cannot do justice to the issue or the lives of all the 
people affected without being respectful of the history of what 
we are talking about today. In recent history, European 
demographics began to change dramatically after the Second 
World War. The continent, depleted of manpower after the war, 
turned to a guest workers program from Turkey, Morocco, 
Algeria, and elsewhere. That was for labor to rebuild their 
countries destroyed during the war. Additionally, as Europe's 
colonial empires came apart, that too spurred migration from 
Africa, the Asian Subcontinent, and the Middle East. Both the 
collapse of the Soviet Union and the implosion of Yugoslavia 
brought new migrants who sought safety, education, jobs, and 
being reunited with their families.
    In 2015, famine and collapsing economies in the Middle East 
and Africa, as well as the wars in Syria and in the Middle 
East, caused a spike in migration bringing more than 1 million 
people into Europe, some of them fleeing ISIS or some of them 
just desperate to get away from the horrible conditions in 
refugee camps. Others came seeking employment and a means to 
support their families. A small portion of those who entered 
Europe came with bloody and radical intentions. A very small 
percentage, very small number of these people were terrorists. 
That, too, will be part of the discussion.
    While the 2015 wave has tapered off, the ramification from 
that event are still with us today. Politically, it has damaged 
solidarity within the European Union as some states have 
rejected the Berlin-Brussels position on geographically 
redistributing asylum seekers throughout Europe. So it has 
caused some problems there. And it has also raised sensitive 
questions about how successful European societies have been at 
assimilating past groups of immigrants.
    It is prudent to ask how can European societies absorb 
hundreds of thousands, perhaps millions of sub-Saharan Africans 
and Arabs from the Middle East, many of whom are Muslims and 
all of whom come from a vastly different culture than the ones 
found in Europe, especially when reaching Europe is an 
achievable goal now for so many and the mechanisms to return 
failed asylum seekers and unlawful economic migrants is 
woefully insufficient or maybe even nonexistent.
    The answers have been clearer and they have been also, 
however, unnerving to many European populations. From the 
Brexit vote to the rise of the AfD in Germany, and yes, 
elections in Hungary and the rhetoric about controlling borders 
and maintaining cultures and preventing radicalization, all of 
this has been a constant. For the United States, our European 
NATO allies are among the most valuable partners we have. Their 
reduced unity and increased political instability do not serve 
our interests.
    However, this hearing will shed some light on constructive 
ways that we can approach the challenges that we are talking 
about.
    I will now turn to--Mr. Meeks is not here. Maybe Ms. Kelly, 
do you have an opening statement? Okay. And we will find a way 
to mark time until Meeks gets here, but I will instead 
introduce all of the witnesses.
    Starting with number one with Dr. Victor Davis Hanson, a 
Senior Fellow at Hoover Institution at Stanford University. He 
is a scholar of classics and military history and having 
written nearly two dozen books, his latest is a history of the 
Second World War, a book which is right on my desk ready to be 
read and it has been there for a couple of weeks I might add 
waiting for me. I appreciate that you have traveled all the way 
from California to be with us today and to share with us your 
understanding of this and put in perspective the history of 
what we are talking about.
    We also have with us Dr. Marta Vrbetic. Now with a name 
like Rohrabacher, no one ever mispronounces my name, so anyway, 
we are very happy to have you with us today. You are a Fellow 
with the Global Europe Program within the Woodrow Wilson 
Center. Previously, you were an Ambassador or Assistant 
Professor, that is, of Government at Gallaudet University. And 
she is an expert on European politics and conflict resolution.
    Robin Simcox is a Margaret Thatcher Fellow at the Heritage 
Foundation. He is widely published and an expert in 
counterterrorism and counterradicalism and I am happy he is 
with us today and serving as a witness.
    And finally now, I am going to try to pronounce this 
correctly, too. I have failed so far, but here goes, Wa'el 
Alzayat. Got it. Okay. He is the CEO of the Emgage, an 
organization that advocates for Muslim Americans and he has had 
a distinguished career at the State Department, serving in the 
U.S. Embassy in Iraq, the U.S. Mission to the United Nations, 
and the Department's Syria Outreach Coordinator.
    I want to thank all of you for being with us today. Should 
we proceed? Okay. I would ask the witnesses to summarize your 
testimony into 5 minutes. Anything you want to say more than 
that you can put into the record and we will also get to a more 
extensive dialogue once the questions begin.
    So Mr. Simcox?

   STATEMENT OF MR. ROBIN SIMCOX, MARGARET THATCHER FELLOW, 
   MARGARET THATCHER CENTER FOR FREEDOM, DAVIS INSTITUTE FOR 
 NATIONAL SECURITY AND FOREIGN POLICY, THE HERITAGE FOUNDATION

    Mr. Simcox. Chairman Rohrabacher and distinguished members 
of the subcommittee, thank you for the opportunity to testify 
here today.
    My name is Robin Simcox. I am the Margaret Thatcher Fellow 
at The Heritage Foundation. The views I express in this 
testimony are my own and do not represent any official position 
of The Heritage Foundation.
    My goal this afternoon is to highlight some of the 
challenges Europe will face in the future due to both historic 
and more recent decisions on mass migration.
    First are the security concerns related to recently arrived 
asylum seekers and refugees. The Islamic State of Iraq and al-
Sham or ISIS is known to have infiltrated Europe using the 
unprecedented refugee flow. This was particularly common in 
2015 when Chancellor Merkel opened up Germany's borders. Yet, 
its ideology has also proven attractive to recent arrivals into 
Europe who were not previously part of the ISIS orbit.
    Forthcoming Heritage research documents the impact of the 
recent influx of refugees and asylum seekers has had on 
European security. Since January 2014, either refugees or 
asylum seekers or those exploiting the migrant routes into 
Europe have been involved in dozens of separate plots in Europe 
leading to hundreds of deaths and injuries including that of 
American citizens. The majority of these plots have direct ties 
to ISIS.
    Furthermore, the plots took place throughout Western 
Europe, with Germany the number one target. The perpetrators 
came from a broad variety of countries, but most commonly from 
Syria. Several individuals even had their asylum applications 
rejected but were unfortunately not immediately deported and 
this includes those who carried out vehicular attacks in Berlin 
and Stockholm.
    Second are concerns over the doctrine of state multi-
culturalism in Europe. This doctrine accepts that different 
cultures will live segregated lives with no expectation to 
integrate, leading to the development of separate, parallel 
societies with competing laws and customs. In the U.K., for 
example, there are dozens of sharia councils. They adjudicate 
on a variety of civil issues, including sharia-compliant 
financial advice and resolving family disputes. These councils 
operate legally under British civil law. However, one recent 
U.K. Government report carried out for the Home Office 
determined that these councils are encroaching on legal matters 
outside their purview. This report stated that there are now an 
estimated 100,000 sharia marriages without state recognition, 
meaning that women do not have the legal rights they should 
under U.K. law. Certain sharia councils were also adjudicating 
on child custody and domestic violence issues. The Home Office 
report went on to highlight ``claims that some Sharia Councils 
have been supporting the values of extremists, condoning wife-
beating, ignoring marital rape and allowing forced marriage''
    Thirdly, mass immigration can also adversely affect foreign 
policy. In January 2014, The Guardian reported that senior 
officials in the U.K.'s Ministry of Defence had assessed that 
the reality of ``an increasingly multi-cultural Britain'' could 
influence future strategic defense decisions. These Ministry of 
Defence officials cited worries that British troops had largely 
been deployed to Muslim-majority countries in recent years, 
such as Afghanistan and Iraq. There were concerns about 
deploying troops in the future to countries from which British 
citizens or their families had historic ties. This was an 
acknowledgment that U.K. policy could see strategic interests 
abroad sacrificed for domestic security interests at home. And 
despite the recent modest contributions to U.S. military 
actions in Syria, there is nonetheless the possibility of 
future constraints on the U.S.'s closest allies.
    Chairman Rohrabacher, distinguished members of the 
subcommittee, the humanitarian situation many refugees flee 
from is, of course, horrific. Syria, especially epitomizes 
this. Nations wishing to adopt the policy of controlled 
migration in response is entirely understandable. Furthermore, 
the concerns I have referred to in Europe do not exist solely 
because of the most recent inflow. Europe has struggled with 
integration and domestic security concerns for decades. Yet, 
the most recent inflow has, unfortunately, exacerbated these 
problems. As a possible solution, European Governments could 
more rigorously vet asylum seekers, commit more resources to 
counterterrorism, be more willing to deport those in Europe 
illegally and place an expectation on newcomers that they 
integrate into their new environment and respect core European 
values.
    Thank you for inviting me today and I look forward to your 
questions.
    [The prepared statement of Mr. Simcox follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Rohrabacher. Dr. Vrbetic.

STATEMENT OF MARTA VRBETIC, PH.D., GLOBAL FELLOW, GLOBAL EUROPE 
   PROGRAM, WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Ms. Vrbetic. Chairman Rohrabacher, Ranking Member Meeks, 
and members of the subcommittee, thank you for inviting me to 
testify before the House Subcommittee on Europe, Eurasia, and 
Emerging Threats.
    I will be speaking in my own name and the opinions 
expressed in my testimony should not be understood as 
reflecting the official views of the Woodrow Wilson 
International Center for Scholars.
    Since I have only 5 minutes, I will go and talk about the 
most important issues that I find: How European politics is 
changing, what impact might be on the transatlantic 
relationship, and if I have time, I will go back to the Balkans 
and the impact of the migration crisis on the Balkans in 2015.
    First of all, as you mentioned, the anti-establishment and 
far-right parties are gaining ground in Europe, as we have seen 
the recent electoral victories in Austria, Italy, and Germany. 
Chancellor Merkel took its centrist conservative party to the 
left, and some of her supporters defected to the far-right 
Alternative for Germany, AfD. And with just 13 percent of the 
national vote, AfD has been able to disrupt German politics, 
making it more difficult, for example, for Chancellor Merkel to 
form the new government.
    I should also say that Russia has been supporting some far-
right politicians in Europe and probably is doing so in order 
to increase divisions within Europe and upset the established 
governments.
    Recently, the United States, joined by France and the 
United Kingdom, launched air strikes against Syria. The German 
Chancellor said the action was appropriate, but didn't join the 
allies in taking the action due to the opposition at home. 
Basically, the migration crisis, and everything that followed, 
left the German Chancellor weaker. And we see here how the 
transformation of European politics could possibly have impacts 
on transatlantic relationship.
    Furthermore, European leaders are beginning to worry about 
the possibility of devastating far-right attacks which could 
potentially radicalize Muslims, provoke more attacks by 
radicalized immigrants and far-right groups, and lead to the 
breakdown of law and order. I am referring to the hypothetical 
scenario developed by the EU Institute for Security Studies, 
which reflects some of the concerns in Europe right now.
    Migration has also become a big source of contention in 
Europe between the new democracies in the east and their 
western counterparts, especially over how to reallocate 160,000 
asylum seekers from Greece and Italy. The Visegrad Four 
countries--Hungary, Czech Republic, Slovakia, and Poland--
remain opposed. They insist that the EU should protect its 
borders and prevent migratory pressures, rather than distribute 
asylum seekers. Germany and West European states insist on 
solidarity and burden sharing.
    Because I have very little time left, I will go to what the 
United States can do and is doing to help Europe. First of all, 
the United States and NATO should continue disrupting the 
smuggling and trafficking across the Mediterranean, thereby 
also helping protect European borders.
    Second, there should be no repetition of the experience we 
have seen in 2015 when 1 million migrants, virtually unvetted, 
made it to the heart of Europe. Besides posing security risks, 
and some of the Paris attackers passed through the refugee 
shelters of the Balkans, the migration influx was destabilizing 
the Western Balkans and Southeast Europe, causing lots of 
quarrels among the countries that are still unstable and still 
have neighborly disputes.
    The United States should also urge Europeans to put their 
differences aside. Eastern Europeans look up to the United 
States of America, and we should urge them to end their present 
quarrels with their Western counterparts. Eastern Europeans 
should embrace solidarity and accept the need to shape the 
common asylum policies in Europe. Western Europeans need to 
stop talking down to Eastern Europeans and be ready to examine 
their failing integration policies at home.
    I am overtime, therefore I will end here, as there will be 
more opportunity for discussion.
    [The prepared statement of Ms. Vrbetic follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Rohrabacher. Thank you.

   STATEMENT OF VICTOR DAVIS HANSON, PH.D., MARTIN AND ILLIE 
ANDERSON SENIOR FELLOW, HOOVER INSTITUTION, STANFORD UNIVERSITY

    Mr. Hanson. Thank you. I will try to summarize very briefly 
my written statement, Chairman Rohrabacher.
    Mr. Rohrabacher. Pull the microphone a little closer, we 
are having a little volume problem there.
    Mr. Hanson. What we see now is the largest group of 
potential migrants since World War Two in the displaced persons 
that were the result of the invasion of Russia in 1941 and the 
Russian counter offensive. And it is a pool of 60 to 65 million 
people would like to leave Asia, Africa, or Latin America, so 
what we have seen is maybe the tip of the iceberg.
    There is a commonality that we share in the United States 
with Europe. It is always, almost always, a non-Western to a 
Western phenomenon, that is, the former British Commonwealth, 
the United States, and Europe have a greater propensity for 
consensual government, free market economics, transparency in 
the judiciary and that attracts people who want to enjoy that 
atmosphere.
    Most of the people who are arriving, unfortunately, are 
coming under illegal auspices. They tend to not have language 
fluency in the host country in which they arrive. They are not 
often a diverse group of people. They tend to be concentrated 
from a particular country or region and they are coming, as I 
said, in unprecedented numbers. They cause a lot of political 
ramifications for the host country. Politically, the divide is 
often progressives who are at least stereotyped to be more 
sympathetic to social welfare programs or more sympathetic 
versus conservatives that are worried about tradition, customs 
and are more skeptical. But more importantly, there is a class 
divide. The elites who tend to favor open borders, if I could 
use that term, through their influence and power, are often 
immune from the ramifications of their own ideology. And the 
lower and middle class native citizens deal with the problems 
first hand and that has caused a rise in populist movements, 
both left and right in Europe and the United States.
    There is also a little bit of chauvinism on their arrival 
because the demography is much more fertile, sometimes three to 
four replacement numbers rather than 1.4 or 0.5 in Europe or 
not even 2 in the United States and that tends to suggest that 
you hear this term demography is destiny and it is a very 
Orwellian situation where the arrival starts to dictate to the 
host that they are the future of the country.
    Let me just quickly say we in the United States are very 
fortunate because we have about twice the number of migrants. 
We have double the percentage of non-native born, but we have a 
much stronger tradition of the melting pot. Americans are 
racially, ethnically, and religiously diverse. You cannot 
identify an American by his appearance in the way that 
Austrians or Greeks are.
    We have a country. Europe is a confederation. And the 
Schengen Agreement, area agreement, the Dublin, are not as 
successful in creating a uniform approach to the problem. We 
have one border that is porous. Europe has many borders, 
eastern and southern, land and sea, as anybody who has been to 
the Dodecanese islands and seen what is happening.
    We, in America, most of the people who come in have the 
same faith as the host population, Christianity. That is not 
true in Europe with the Islamist difference and disconnect. 
People arriving to Europe are more inordinately male. They are 
about 65 percent. Ours are about 55 percent. Males, 
historically, are the root of most problems, especially the 
younger they are.
    Let me just conclude by suggesting there are strategic 
ramifications for the United States that we often--and I don't 
want to repeat what Mr. Simcox so eloquently pointed out which 
I am in agreement with, but NATO is no longer using a draft. 
Only two countries are left. It is a volunteer army. Experience 
shows usually when you have a volunteer army, people from the 
newer-arriving classes are the less economically successful 
will join the military and that will have a larger number of 
immigrants.
    Secondly, only six countries in Europe are meeting their 2 
percent goals of GDP and with this increased social cost, 
whether it is actual or psychological, they will be more 
reluctant to meet their commitments.
    Germany has been the historic leader of Europe and it is 
really suffering somewhat being discredited after the financial 
north-south divide in Europe and then the Brexit divide of 
which in both cases Germany was at the fore. They are creating 
a great level of animosity, especially from Eastern Europeans 
who felt that they had been condescended to by German 
leadership. And I think this has enormous security 
ramifications for the United States if Germany is not a 
credible leader of the EU and the EU itself is not able without 
a stricter political framework to address this. And we really 
see an EU now cut not in half north-south but in four ways.
    And then finally, we have strong ties to Israel and we know 
now that the level of perceptible anti-Semitism is rising and 
there has been an out migration to Israel. That has security 
ramifications to the United States. And that is, I think, 
mostly a result of incoming arrival. Thank you very much.
    [The prepared statement of Mr. Hanson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Rohrabacher. Thank you very much and Mr. Wa'el Alzayat.

STATEMENT OF MR. WA'EL ALZAYAT, CHIEF EXECUTIVE OFFICER, EMGAGE

    Mr. Alzayat. Chairman Rohrabacher, honorable members, 
thanks for having me here today. My name is Wa'el Alzayat. I am 
CEO of Emgage which is a civic education and engagement 
organization for Muslim and minority communities. As was 
mentioned earlier, I served for 10 years at the Department of 
State on Iraq, Syria, and a lot of the other easy to deal with 
countries that we are all discussing. I served under some 
incredible diplomats including Ambassador Samantha Power, 
Ambassador Jim Jeffery in Baghdad twice. And I worked with 
Ambassador Robert Ford on the very difficult Syrian crisis for 
3 years. So I hope what I am sharing with here is understood as 
my personal professional reflection on what I have seen 
firsthand.
    As has been mentioned, there are approximately 65 million 
refugees worldwide, the largest since World War Two. And I know 
we don't want to dwell just on Syria, but it was the Syrian 
crisis that led to a 40 percent spike after 2011 in that 
number. And that is a really in term of the annual 
displacement. And Syrians right now are the largest number of 
refugees, over 5 million.
    And it is important to understand how we got here just very 
quickly. It was the escape from terrorist organizations, but 
mainly from the brutality of the Assad regime which was cited 
by most refugees as the reason for their displacement. Most 
Syrians I have spoken with and dealt with had no intention of 
leaving their country and wish they were still there, had they 
not been literally barrel bombed out of their homes. And we 
have seen also subjugated to other means of torture including 
chemical weapons, etcetera, etcetera.
    On top of that, it was really the Russian intervention in 
Syria in 2015 that led to an increase in that displacement on 
top of the existing displacement. In fact, the same year Russia 
entered the conflict in Syria, 1.2 million first time asylum 
seekers applied in Europe, twice the number the year before. So 
there is a direct correlation there.
    So if we are serious about stemming the flow of refugees 
into Europe, then part of the answer lies in civilian 
protection in Syria and other countries that are hemorrhaging 
people. Now with this latest wave of migration, there is 
completely understandable anxiety. It is normal. The world is 
shrinking. It feels like it is shrinking. And not always in a 
good way.
    But we need to level set a little bit. When we look at the 
terrible phenomenon of terrorist strikes and attacks in Europe, 
the majority have been done actually by European citizens, not 
by immigrants and not by refugees. In fact, according to my 
research and I am not an expert in this field, but this is my 
research, from January 2016 to April 2017, only four asylum 
seekers, four, were involved in terrorist attacks. Something 
else is going on here.
    Now clearly, the European project has not been as 
successful in integrating its Muslim refugees and migrants as 
we have here. That is clear to me. But why? There is a lot of 
reasons being cited here, but we cannot neglect the 
institutional discrimination and public sphere and particularly 
in the job market, combined with strict interpretation of what 
it means to be a citizen. This has alienated particularly 
second and third generation children of immigrants who feel 
disconnected from the only country they know.
    But regardless of all of this, European Muslims are very 
young. Over half is under the age of 30. These are the 
continent's future. They are engaged and empowered and we know 
they are already attached to their societies. For example, 76 
percent speak the local European language as their native 
language. Seventy-five percent regularly intermingle with non-
Muslims. And they identify with the host country and that 
identification is increasing over time.
    But more importantly, 94 percent said they felt connected 
to the country they lived in. These are Muslims in Europe. With 
the new defeat of ISIL on the battlefield, it is more important 
than ever to distinguish its nihilist ideology. It has to be 
defeated. But this requires engagement and tolerance rather 
than demonization and bigotry. It requires trust building 
between law enforcement and local communities. It requires 
creating equal opportunity for everyone and requires respect 
for people regardless of their faith and treating them as equal 
citizens.
    I know much is usually said about the Judeo-Christian 
values. I can tell you that you can't have Judeo-Christian 
values with Islamic values. They are inherently the same. They 
worship the same God and follow the teachings of the same 
prophets. Perhaps the best model of integration is right here 
at home where religious freedom is guaranteed by the 
Constitution and citizens are not asked to choose between their 
faith and being American.
    According to pure research here in 2017, Muslim Americans 
overwhelming say they are proud to be Americans, believe that 
hard work generally brings success in this country and are 
satisfied with the way things are in their own lives, despite 
100 percent increase in hate crimes against Muslims since 2014.
    I, myself, I am one of those proud Americas who is also an 
immigrant and a Muslim and a Syrian. It is the belief of the 
ideals of America where we are judged by what we do rather than 
the color of our skin that gave me the impetus to become a 
public servant and the privilege to work on some of our 
country's most challenging national security issues. I fear 
those ideals are under assault.
    I personally feel that the real challenges, the emerging 
challenges facing Europe and elsewhere, it is not the refugees 
or the migrants. It is the willful abandonment of our cherished 
values of tolerance and equality under the law. I hope we can 
all work together on resolving some of these real pressing 
issues together in a constructive manner for the sake of our 
country, our European allies, and really the world. Thank you.
    [The prepared statement of Mr. Alzayat follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Rohrabacher. Well, thank you.
    Mr. Meeks. Thank you, Mr. Chairman. And good afternoon, 
everyone. I apologize for being a little tardy. I want to thank 
Chairman Rohrabacher for calling our attention to an on-going 
concern of ours as we look at Europe from this side of the 
Atlantic. Large migration flows into Europe including from 
majority Muslim countries is not a new phenomenon. But let us 
remember the flows from the Middle East, Turkey in the '50s and 
the '60s and from the Balkans and Iraq in the '90s. So although 
I know we will inevitably talk about Chancellor Merkel's 
decision on Dublin as a pivotal moment, I would like for us to 
keep in mind the changing nature of European populations 
throughout the 20th century and earlier. Some facts have 
changed, but we have been here before.
    I also cannot help but comment on our own changing refugee 
policies here in the United States. As the world rapidly 
becomes a smaller place where transcontinental threats affect 
us all, the Trump administration is acting, in my belief, in an 
incomprehensible manner: By bombing Syria when he sees fit, not 
solving the problem, and tightening our refugee policy here at 
home, a policy that I might add has been very successful. Our 
refugee policies and mechanisms, by the way, can teach other 
societies, including those in Europe, best practices.
    Before we criticize Europe for trying to integrate from 
refugees from bloody massacres in Syria or often from regions 
where are directly involved, I suggest we reflect a bit on what 
it means when we turn away refugees.
    Finally, on a personal note, my family came to New York 
from the South, from South Carolina, in very difficult 
conditions that I did not quite understand as a young boy 
growing up. But they were internal migrants, looking for better 
opportunities for their children and risked a great deal. They 
had to travel 12 hours from South Carolina to New York. You go 
12 hours, you can be almost anyplace else in the world today. 
And although they were not escaping a conflict zone, I cannot 
help but think of my family's experience when looking at videos 
of families at the Hungarian border, for example.
    And I understand that not all of these people are refugees. 
I understand that they may not have the legal rights in Europe 
and should be turned away after due process, but I cannot stand 
for treating the traveler, the lost, the impoverished, the 
naked, as nonhuman, as a disease coming to infect the West. It 
pains me to see populations in Europe, political groups across 
Europe, and even some voices here in Congress, treat fleeing 
migrants, all of whom went through horrendous journeys, as a 
political tool to scare their populations instead of 
pragmatically addressing the causes, the difficulties, and the 
opportunities of the situation at hand which is what we should 
be doing.
    As Europe or the EU grapples with newly-arrived migrants 
and integrating refugees, I see this as a test of our liberal 
values. Can our system, the one in which we fought world wars 
and cold wars to build and protect, treat the individual, 
regardless of race or creed, as one with equal rights and 
opportunity. I believe that the United States can be an example 
of how to successfully integrate new citizens from far away 
countries with different cultures.
    I proudly represent Queens, New York, which is one of the 
most diverse in all of the United States. And although I know 
that this may be difficult or uncomfortable for elements of 
European and American societies to see, I nevertheless believe 
in our values and institutions as we move forward. Let us look 
to incorporate the youth and foster future leaders from all 
walks of life for they will help today's leaders navigate this 
change.
    I look forward questioning and listening to our panelists 
as we go forward and I think that this is not a new normal. And 
if we are to protect our values, our way of life, our 
societies, we have to have these difficult conversations about 
race, religious, and individual rights in a free society. I 
welcome this honest dialogue and I hope that our transatlantic 
ties can only become stronger as we address the issues at hand 
and address them collectively.
    Thank you, Mr. Chairman, I yield back.
    Mr. Rohrabacher. Mr. Cicilline, do you have an opening 
statement that you would like to put in?
    Mr. Cicilline. Thank you, Mr. Chairman.
    Mr. Meeks. And I can't wait to hear it.
    Mr. Cicilline. I want to thank you, Chairman Rohrabacher 
and Ranking Member Meeks for holding today's hearing on mass 
migration, Europe, and security.
    Over the past several years, Europe has experienced 
significant refugee and migrant flows as people have fled 
conflict and poverty in bordering regions. This population 
increase, coupled with horrific violent attacks, has led to 
heightened concerns about terrorism and crime.
    As we discuss this important issue, we should take care not 
to conflate refugees or migrants with terrorists or criminals. 
The vast majority of refugees who have sought shelter and 
protection in Europe are running from brutal dictators, fleeing 
environmental catastrophe, are seeking a home where they can 
live, contribute, and worship in peace. It is clear to me that 
the international community must do more to assist those in 
need while ensuring the safety of all.
    I want to thank the witnesses for your testimony about the 
current efforts under way in Europe, the challenges that they 
are facing, and ways that the United States can assist our 
partners there.
    I think yesterday we heard from President Macron who 
identified the necessity of American leadership to shape the 
21st century world order and the responsibility to stand up 
against this tide of authoritarianism and the effort to 
undermine important democratic institutions that are essential 
to freedom and justice in our society.
    And I want to just conclude by saying I strongly agree with 
the final witness who just testified that the real challenge 
that we face is not refugees and migrants. It is the systematic 
undermining of our democratic institutions and as you said, the 
willful abandonment of our values of tolerance, equality, and 
the value and respect of human dignity. So I hope that we will 
have a discussion that focuses on how we can promote those 
universal values of human dignity and respect and universal 
human rights and recognize that we are a nation that is renewed 
in every generation by immigrants and refugees and the same 
happens all over the world.
    I thank you and I yield back.
    Mr. Rohrabacher. I would like to thank our witnesses and 
thank members of the subcommittee who joined us today.
    I would like to just to get some fundamentals from Dr. 
Hanson first. Do you see that--you are well known for your 
analysis of history and a really detailed and in-depth 
knowledge of this.
    Mr. Hanson. We all agree to democratic tolerance and 
liberal values, but we have to realize that whether we like it 
or not, that is largely a Western phenomenon that doesn't exist 
in Africa, or Asia, or Latin America with the same degree it 
does in Europe and the United States.
    So we are appealing to a tradition and that tradition has 
emphasized that newcomers engage in a brutal bargain. They give 
up something of their--we don't ask people who arrive here to 
give up their food or culture or religion, but we do say they 
have to give us something to be part of the whole, and that is 
to accept democratic values and tolerance. And we know from 
historical exempla that assimilation, integration, and 
intermarriage, and I am speaking as both of my brothers are 
married to people from Mexico, it only works when immigration 
is measured, mostly legal, and diverse.
    And what we really want to do then is to make Americans, 
that is number one. Number two is we do have a lot of hate 
crimes, but unfortunately, in the United States in the last 3 
years most of the hate crimes have been of the anti-Semitic 
nature and many of them have been the greatest perpetrator were 
second generation Muslim youth. And so what I am trying to get 
at is that it is not just the first generation immigration. If 
you look at Fort Hood, if you look at Orlando, if you look at 
San Bernardino, if you look at the Boston massacre, we who 
integrate and assimilate people much better than Europe does, 
have failed to stress the melting pot and the salad bowl has 
allowed certain zealots to appeal to a second generation who is 
more vulnerable to separatism and chauvinism than is the first 
generation, because they grew up with a bounty of the United 
States or Europe without the struggle and the ordeal of their 
home country, so it is very important that we stress liberal 
values of tolerance to the second generation that are much more 
prone to violence as we see in Europe.
    Mr. Alzayat is quite right. It is the second generation. 
But the second generation is a phenomenon of massive 
immigration.
    Finally, I think all of us agree that we do a much better 
job with the melting pot, and assimilation, and integration 
than Europe, but we are not in a position, especially vis-a-vis 
Europe to dictate how they are going to run their internal 
affairs. What we need to do is prepare ourselves to react to 
maybe their mistakes or their successes. And what we are seeing 
now is that Europe is dividing left and right, east and west, 
and north and south over immigration. And Vladimir Putin, for 
example, is championing a chauvinistic view that has wide 
appeal in Eastern Europe because elites in the EU have been 
condescending and giving lectures to people about you have to 
be more tolerant, you have to be more liberal minded. And yet, 
they themselves are not subject to the ramifications because of 
their influence and power and wealth. It is the lower middle 
classes of Eastern and Central Europe that deal firsthand with 
this and are most vulnerable to propaganda coming from 
autocracies that say the Europeans don't represent you or it 
has failed.
    So it is a much more complex idea, but the idea that we can 
give lectures to the Europeans about their French Revolutionary 
values, it is wonderful that we would try to do that and we 
should, but in a practical sense, we have to deal with the 
realities that they may make unfortunate decisions and we have 
to protect our security interests accordingly.
    Mr. Rohrabacher. I was just informed that an amendment that 
I was hoping would be discussed before, will be on the floor in 
4 minutes, so that is how frustrating this job can be.
    Dr. Hanson, thank you for making those points. I wanted to, 
let me just say, we want America and we love America for its 
openness and we are hoping that, as Dr. Hanson was indicating, 
that what we are doing is making Americans out of them rather 
than having them change those fundamental values that are 
American and that relates directly to the insistence on some 
people who are Muslims who are coming here on, and as they are 
in London, demanding that they have sharia law and that their 
families be governed under sharia law. I will just let you have 
a go at refuting that, but isn't that a very legitimate concern 
when you have a large number of Muslims coming into another 
country and then suggesting that they have to have the rights 
that are totally inconsistent with the culture here of how they 
treat women and how they treat young girls, send them out to be 
married at a young age, as well as some of the other elements 
of sharia law that are totally inconsistent with our beliefs of 
liberty?
    Mr. Alzayat. Thank you for that question. You know, there 
is a lot to unpack. I think here is there is the statement that 
a lot of Muslims there and here want sharia law. Statistically 
speaking, most Muslims according to most surveys do not want 
sharia law, first of all, in the countries that they are living 
in, particularly in Western countries.
    Second of all, we need to understand what sharia law is. 
Sharia law is the body of religious teaching that a devout 
Muslim may choose to follow in their daily affairs. And now we 
are talking here about praying, fasting for Ramadan----
    Mr. Rohrabacher. As you know, no one is complaining about 
that.
    Mr. Alzayat. But that includes----
    Mr. Rohrabacher. No one is complaining about that. When you 
are complaining about that are things that go absolutely 
contrary to what America is supposed to be about.
    Mr. Alzayat. Correct. But there are no indications or any 
evidence that Muslims in any place whether in Britain or the 
United States have insisted on undermining the existing laws or 
Constitutions and implementing----
    Mr. Rohrabacher. There is no evidence that Muslims in 
England or here have insisted that their families will be--they 
will conduct themselves with their young daughters, that they 
will be able to give them into fixed marriages or there have 
been actually, what I understand murders of women who have 
committed adultery. But that doesn't happen?
    Mr. Alzayat. Of course they happen and they are horrible. 
But we are talking about most Muslims or a lot of Muslims 
versus a minority that is extremist and must be dealt with.
    Mr. Rohrabacher. Well, we are dealing with a situation in 
the modern world. It doesn't take all Muslims. If you have one 
Muslim who goes like in San Bernardino where you had two Muslim 
immigrants who murdered all of these social workers.
    Mr. Alzayat. Same as white supremacists----
    Mr. Rohrabacher. Okay, but the point is they are there and 
that is impacting them and resulting in this death doesn't mean 
because they represented only a smaller group of Muslims that 
we shouldn't understand that there is a psychological part of 
this whole equation that has led to the death of all these 
Americans.
    And, I might add, leads to situations in London and 
elsewhere where you have violence or you have activities that 
are going on that wouldn't go on. You don't have to say most of 
them want it, but if you just have a certain number of people 
there that have not--okay, being vetted you say. Well, I guess 
that is the question. Should we--I am going to give up the 
floor in 1 minute.
    Should we be then vetting people who come from the Islamic 
world as to what things they----
    Mr. Alzayat. We should be vetting anybody who would like to 
come to the United States.
    Mr. Rohrabacher. Okay, right. But that is not what this 
hearing--this hearing isn't about anybody. This hearing is 
about how we deal directly with the Islamic migration.
    Okay, so when we deal with Islamic migration, do you think 
that we should vet Muslim would-be immigrants here, and they 
should be vetted the same in Europe, to make sure that they do 
not want to conduct various practices?
    Mr. Alzayat. I think any immigrant to any European or 
Western country, including the United States, should be vetted 
to make sure that they have no ties with any illicit groups and 
do not hold any illicit views. I do. But that should be for 
anybody.
    Mr. Rohrabacher. So you do believe then that we can ask a 
Muslim whether or not he or she believes in four wives or some 
sort of treatment or some sort of punishment of daughters that 
is differentiated from sons? Do you think that is okay to vet 
them for that? Deny them----
    Mr. Alzayat. If it is applied consistently for the 
applicant, I am fine for it.
    Mr. Rohrabacher. Okay.
    Mr. Cicilline. I wonder if the gentleman would yield? I 
wonder if you have the same concerns about all of the teachings 
in the Bible about mixing two kinds of fabrics, about stoning 
for infidelity, you go through that list. Do we ask Christians 
whether they should denounce those teachings? Nobody practices 
those.
    Mr. Rohrabacher. I would suggest that----
    Mr. Cicilline. Great examples, if you Google all of the 
claims that are in the Bible that people don't actually do 
today because if you took them literally, cutting off the hand 
of your spouse, would we make the same inquiry of Christians 
coming in?
    Mr. Rohrabacher. Christians and Jews and everybody else who 
tries to come here should be vetted.
    Mr. Cicilline. I think that is what the witness aid.
    Mr. Rohrabacher. But I will suggest that the last time 
someone like that who is an immigrant from another country who 
exploded because of their deep faith in Judaism or 
Christianity, I don't remember any incident right now because 
where there deaths because of it.
    Mr. Cicilline. Well, I think the witness said that most of 
the deaths were caused by people who were citizens of the 
country when they caused the attack. So that is a fact. We 
ought to rely on some of evidence and not just sort of our own.
    Mr. Rohrabacher. Can I give the time to the ranking member?
    Mr. Cicilline. I yield back. Thank you.
    Mr. Rohrabacher. Mr. Meeks, you have the floor.
    Mr. Meeks. I was going to let David if he had anything else 
to say. Because the thing I was going to say just about anybody 
in America immigrated from somewhere other than Native 
Americans and I know of a group that still exists in America 
that was responsible for a whole lot of deaths. They are called 
lynchings. They are called the Ku Klux Klan. These are 
Christians and they believe in separation and they believe in 
violence. They have been very violent in this country. They 
immigrated from somewhere else. And many of them were involved, 
not all of them, but many of them, they are still involved in 
the democracy called the United States of America.
    And so to--now I don't blame everybody that happens to be 
Christians and/or white to say that that for minority who 
believes in those things that means everybody believes that. 
And I think what Mr. Alzayat is saying is that there is a small 
minority. You can find a small minority of people of any faith, 
of any ethnic group that are horrible people, but you don't go 
after the whole spectrum when the overwhelming majority--
because it is human nature to have somebody that is evil. And 
we want to stop out and make sort of the evil folks don't get 
in or don't stay here. But that is not because they are not 
evil because they are Muslim. Just like you don't--they are 
evil people and we call them who they are.
    But Muslims, if you look at the religion, it is a very 
peaceful religion and that is what they teach and that is how 
they live by. And for us to color it some other kind of way is 
not going to resolve issues. It is going to cause issues. And I 
think that what we are talking about, I mean, the fact of the 
matter is in the United States previously all you had to do was 
get here. When you came into Staten Island, you registered, 
they didn't care, as long as you got here because it says give 
me your tired, give me your weary, give me, you know, we want 
you, except for those that were brought over in the hulls of 
slave ships.
    Mr. Rohrabacher. Do you want to give him a question?
    Mr. Meeks. I am, but you opened the door. I wasn't going 
that way at all, so there is no way in any good conscience 
because I sit back and just allow, you know, me and you are 
good friends, and I often have to come back after you have made 
a statement, you take me off my game plan and I have got it on 
automatic because I have got to address it because I don't want 
the record to indicate that I can allow a statement that I so 
180 degree disagree with to stand and to go.
    I don't want the record to indicate to anybody that might 
be listening to this hearing, who might be in this room, or 
who--this is being recorded, that Gregory Meeks stood by and 
just allowed the kind of questioning and the statements that 
were just made to go without hearing my strong opposition to 
those statements and to what was insinuated here.
    Mr. Rohrabacher. Is that to be interpreted that you don't 
believe in vetting people for their religious convictions that 
may be violent and cause----
    Mr. Meeks. I believe in vetting everyone, not just because 
of their religious beliefs. I think that as a result, I want to 
make sure--I don't care if you are a Muslim, if you are Jewish, 
if you are Buddhist, if you are anyone who is going to come 
here that you are evil and you are coming here to do harm, I 
want to vet them, but not because you are a Muslim. That is not 
what makes the reason why, just because you are a Muslim.
    There are Christians that commit more crime in America than 
anyone else. There are more Christians that commit crimes in 
the United States of America than any other religious belief. 
There has been more deaths of people of the Christian faith in 
the United States of America than any other religion. And I am 
a Christian, but I yield the question to Ms. Kelly.
    Mr. Rohrabacher. You are next, Ms. Kelly. Go right ahead.
    Ms. Kelly. Thank you, Mr. Chairman. I do associate myself 
with the comments of the ranking member, but with the unrest in 
the Middle East and Russia's invasion of Ukraine, Europe has 
experienced increased migration flows not seen since the fall 
of communism. Many European countries have taken in significant 
numbers of refugees looking for employment and a better way of 
life.
    Many countries, however, have used the increased flows to 
stoke xenophobic sentiments and push anti-immigration policies. 
Many of these policies are aimed at Muslim populations, but 
countries like Poland have taken in a significant number of 
Ukrainians.
    The Polish Government claims to host about 1 million 
Ukrainian refugees of its territory. Many of these people are 
migrant workers, in fact, filling the labor demand in a 
currently well-performing economy. At the same time, there is 
also tension between the local population and Ukrainians which 
recalls troubling history between the two nations in the 20th 
century.
    Warsaw touts the fact that they host Ukrainians who are 
more like the Poles culturally as a reason to not accept 
Syrians.
    I think it is important to note that the migration issue in 
Europe is not just about Muslim populations. There are many 
different groups immigrating to Europe, reports of anti-Ukraine 
job postings reminiscent of the Irish Need Not Apply, are now 
popping up in new reports out of Poland. And yet, Polish 
unemployment is low and the immigration wave has delayed 
Poland's migration aging by years.
    Ms. Vrbetic, what type of rights do Ukrainians have when 
they are entering the EU as migrant workers versus refugees? In 
interest of full disclosure, my grandmother on my mother's 
side, they are Ukrainian, so half of my family is.
    Ms. Vrbetic. Thank you for your question. I am afraid I 
wouldn't know about the rights of Ukrainians who enter into 
Poland. I could research that and get back to you.
    I am aware though that yes, Poland has accepted many 
Ukrainians. Yes, I am aware of that.
    Ms. Kelly. Can anyone else answer?
    Ms. Vrbetic. I do have some other comments.
    Ms. Kelly. Okay.
    Ms. Vrbetic. If I could add to this general discussion.
    Ms. Kelly. Sure.
    Ms. Vrbetic. First of all, and I am making comments as 
somebody who is an immigrant. Can you hear me? I am trying to 
speak into the mic now. Someone who is an immigrant, and 
somebody who was raised and born and Europe. I am a U.S. 
citizen. I am a minority in several ways, including being 
completely deaf, and you know, just a minority, lots of things. 
So I do sympathize with many things that were expressed here. 
And I think we may be talking past each other.
    So let me tell you the reasons why I think that the 
migration to Europe, that the solution is not just to accept 
everybody who wants to come. First of all, because there are so 
many migrants. We are talking about 60 million that might 
appear at European borders, and when I use the term migrant, I 
am using it as a general term. It can include asylum seekers. 
It could include refugees. It could include those who are 
seeking economic opportunity.
    The second thing is, we are talking about the upcoming 
problems in Africa, where there will be one third of the 
world's youth by 2050. The youth bulge is usually associated 
with protests and possibly radicalization. There will be no 
jobs. There is no way that Europe can absorb all of the people 
who want to appear on its borders, so this is the reason.
    The second----
    Ms. Kelly. I know you are--I only have a certain amount of 
time myself, so I wanted to get another question in.
    Ms. Vrbetic. I apologize. The first time in a hearing, so I 
may not fully know the procedure.
    Ms. Kelly. No problem.
    Ms. Vrbetic. I apologize.
    Ms. Kelly. Mr. Alzayat, I understand that many immigrants 
to the U.K. come from outside the EU and are not new to the 
U.K. In fact, we are looking at second or third or fourth 
generation British citizens or French or Belgian who do not 
feel like they are fully-fledged Brits. How can we work with 
the powers that be, the old guard in economics and politics, to 
open doors and provide equal opportunity to all citizens? This 
is the tool against radicalization. What success stories have 
there been if you know of and it seems like we only focus on 
the negative aspects of all of this.
    Mr. Alzayat. Thank you for that question. You know, it is 
clear to me that true social integration requires investment in 
education and also in employment as the basic ingredients. If 
you look at France, they actually do a great job in education, 
but the labor market is overly regulated and inherently 
discriminatory. So you end up with well-educated minorities 
with no jobs.
    Germany does not have quite the same robust educational 
system, particularly for minority communities especially in 
early age, however--and there are more barriers, especially 
because of the language, but a much more lax and welcoming 
labor market. And as such, you see big difference in terms of 
the perception of those communities of themselves, of the 
connectiveness to the society and their success and their 
income which by the way irrespective of that, it is still lower 
actually than the white Europeans.
    So really the way forward here is to invest more in 
education of these children and providing job opportunities. 
But another piece really is in Britain this has been, I think, 
done in the right way. Islam needs to be recognized as one of 
the major religions. And it needs to be true inclusivity of 
people who are practicing that religion in the public sphere.
    There was a comment made earlier that this fear that the 
more Muslims there are in the armed forces of NATO or in the 
policy circles, somehow that is going to negatively affect 
European foreign policy and engagement abroad. I think the 
opposite happens. You have a more committed, civically engaged 
community that is helping you flesh out these ideas and tackle 
some very difficult issues and giving you diversity of opinion 
and credibility when engaging with those. And that is my own 
experience as a representative of the State Department. I would 
like to think that people like me and us actually help our 
country be stronger when we engage abroad with people of 
different faith, color, and religions.
    Ms. Kelly. I know I am out of time, but when I listen to 
you, I am very big in the gun violence prevention fight and I 
can apply what you said to some of our urban areas, the 
investment and education and employment would make such a 
difference and more inclusivity. So thank you.
    Mr. Rohrabacher. I am going to put the subcommittee on 
recess for \1/2\ hour. And we will come back and hopefully 
have--there have been some very profound statements made. I 
certainly would like to hear some comments on them, but we will 
be back in \1/2\ hour. This committee is in recess.
    [Recess.]
    Mr. Rohrabacher. This hearing is readjourned or 
unadjourned, that is it. Reconvened, that is the word I am 
looking for.
    Okay, I have been running back and forth to the floor where 
I had an amendment on the floor and it would not have been able 
to be brought up unless I was there, and I want to thank all of 
you for joining us today and being understanding of this hectic 
schedule.
    We had a very lively discussion and I would like Dr. Hanson 
and perhaps Dr. Vrbetic, as well, to have a chance to comment 
on what we were saying before. So Dr. Hanson.
    Mr. Hanson. I think that we have to be precise in the 
nomenclature when we talk about as was mentioned violence. 
Violence is endemic in any society. There is such a thing 
called politically-motivated violence and the statistics 
suggest that politically-motivated violence with an agenda to 
further a political cause in Europe and in the United States 
most of the incidents in the last two decades or since 9/11 
have been so-called Islamic inspired. That is what the 
perpetrators have suggested.
    Second is that a minority of Muslims are prone to violence, 
I think that is correct. But when you are working with a pool 
of 5 million over the last decade that have migrated or you 
have 1.7 million in Europe, just 1 percent of that pool would 
be 50,000 people, so that is something to watch. You can be 
successful in 99 percent of the case, but if you have a group 
of people who feel alienated from society and are prone to 
radical Islamic doctrine, that is a large pool, given the 
European inexperience and inability to assimilate in the 
fashion that we do.
    I think when we talk about hate crimes, we have to be very 
specific. If you go to the FBI statistics, the group that is 
most subject to hate crime violence are American Jews in the 
United States of Jewish faith. At least according to FBI 
statistics, the group that is most identified with perpetrating 
those hate crimes are Islamic zealots. So it is not accurate to 
say that American Jews are not the most--they are the most 
targeted group, at least according to Federal statistics.
    Again, I don't think that the United States, given our long 
relations with Europe, it is very ironic that Europe is used to 
lecturing us, but I don't think we are in a position to alter 
fundamentally European policy. What our prerogative and our 
duty is to do is to protect us and this question has affected 
the NATO alliance, especially the southern flank with tensions 
with Turkey and Greece over immigration. It has affected the 
cohesion of the EU. It has affected NATO contributions. It is 
especially, and I think we haven't talked about this, it has 
made Eastern Europeans far more susceptible to the propaganda 
of Vladimir Putin who is appealing in a populist sense. If you 
go to Greece today, you can see that he is the most popular 
figure there. And his message is a nationalist, populist, 
Orthodox Christendom message that appeals to people who feel 
that their own elites in the EU do not listen to what are often 
legitimate worries about the ability to assimilate and 
intervene.
    And finally, I think it is sort of disingenuous to talk 
about second generation as if that is not connected with the 
first generation immigration pattern. If you look at Boston, 
the Boston Marathon massacre, if you look at Orlando, if you 
look at San Bernardino, if you look at Fort Hood, we have a 
reoccurring pattern of second generation Muslims who have been 
alienated or radicalized and have committed acts of terrorism. 
So the problem is again with assimilation, integration, 
intermarriage, and historically throughout society across time 
and space, if you want to assimilate people, you want to 
integrate them, you want to intermarry them, and make them part 
of the body politic, then you don't have problems in the second 
generation.
    Most of the terrorist incidents that are connected with 
radical Islam in Europe are second generation because of the 
failure. And we know how we facilitate that process of 
Americanization and that is by numbers that are manageable, 
legal, and meritocratic and diverse. We want immigrants from 
all over the world because having influxes from one particular 
place or one particular group and not having them live among 
the population in a dispersed manner makes it much more 
difficult.
    Mr. Rohrabacher. Dr. Vrbetic.
    Ms. Vrbetic. Thank you, Chairman. I would just like to talk 
a little bit about something that I read about Germany and 
German schools and their canteens to illustrate the problem 
that I feel there is with integration. Some of the German 
schools are dropping pork from menu altogether, and this is 
because they have a few Muslim kids. Now I am not suggesting 
that there should be forceful assimilation in the sense of 
forcing Muslim kids to eat pork. But I don't see why German 
schools wouldn't offer a variety of choices so that the Muslim 
kids take their lamb or vegetarians taken their vegetarian meal 
and those Germans students who want to eat pork, they eat pork. 
And they all eat this together in a canteen.
    But instead, we have a situation there are a few Muslim 
students, that the German schools drop pork from menu 
altogether for fear of offending minority. And this is the 
point that I am trying to make, and this is the issue of 
toleration.
    In liberal democracies, some just push this issue of 
toleration to the extreme, and when we push it to the extreme, 
we don't actually encourage toleration as in this case.
    By the way, the issue came to the attention of the 
lawmakers in Schleswig-Holstein, which is one of the German 
provinces. They wanted to keep pork on the menu.
    Going back to this issue, I see the problem between two 
models. One is liberal multi-culturalism. We try to integrate 
minorities within this framework. I have exceeded my time. Is 
that correct?
    Mr. Rohrabacher. No, go ahead. Go ahead.
    Ms. Vrbetic. When we try to integrate minorities within 
this liberal framework. The other is pluralist multi-
culturalism, where there are separate minorities, where we set 
up parallel societies. And the problem with the issue of 
toleration is that when you push it to the extreme, it becomes 
politics of indifference. We don't interfere with these 
communities and we permit, ultimately, some practices that 
don't stimulate integration and where we end up with both 
liberal and illiberal elements. I will end here.
    Mr. Rohrabacher. That is a fascinating analysis. Thank you.
    Mr. Simcox?
    Mr. Simcox. The points I would make, first of all, on the 
kind of the nature of the threat, it is certainly true that in 
Europe most plots are home grown in nature. There is a little 
bit more to that in somebody like Salman Abedi, for example, 
who was the suicide bomber in Manchester last May was second 
generation Libyan, so it was a home-grown case, but still a 
refugee element. Yes, most are home grown.
    But some of the numbers I have been doing on this between 
2004 and 2017, there is 32 plots in Europe, so 8 a year, that 
were perpetrated by refugees and asylum seekers. So it is not 
an insignificant number and of course, that includes something 
like Paris, November 2015, where there was obviously a very 
large body count.
    The other point I would make on the numbers, European 
experience with integration and assimilation is obviously very 
different to the U.S. I think the U.S. has always done this 
much more successfully than we in Europe have, to be honest. So 
I think of a country like Sweden where I was just there the 
week before last. They took in 163,000 people in 2015. And 
obviously, regardless, they consider themselves to be a 
humanitarian superpower and that they view this as truly, it is 
like an international obligation.
    In terms of what ratio that would be in the U.S., that 
would be like the U.S. taking in 5.2 million people. It is a 
very significant number in Sweden. And Sweden, as many in 
Europe, doesn't really have the experience of making this kind 
of thing work, like you in the U.S. do. So I would just raise 
that as one of the potential challenges a lot of Europe 
countries are going to have to deal with.
    Mr. Rohrabacher. Go for it.
    Mr. Alzayat. So you know what is interesting is in the 
European countries with the most refugees, you don't 
necessarily see correlating fear of refugees. So in Germany, 
specifically right? They took 1 million Syrians. Not only was 
Chancellor Merkel at the end of the day elected to a fourth 
term, but German public opinion of refugees is actually one of 
the best in Europe. So why is that? Clearly, leadership and the 
political rhetoric is having something to do with it.
    In a place like Hungary and Bulgaria, where you do have 
far-right parties, who literally were advertising on billboards 
pretty racist themes against incoming migrants and the threat 
that will pose to European women specifically, these are 
societies that have nowhere near the amount of refugees, Muslim 
refugees, as Germany, yet the public perception and views are 
quite negative now.
    I mean it is a clear indication to me that also leadership, 
the rhetoric, the policies, play a big role in that. And 
remember, we are talking about addressing an issue of 
radicalization potentially.
    So my question to everyone is do we think that 
stereotyping, exclusion, demonization, guilty by association, 
will lessen the problem of radicalization? Well, address it. 
And I understand about the fact that maybe there are no more 
refugees coming right now at the same levels, but the ones that 
are in Germany, that are in Europe, what is the best way to 
deal with this situation? They are there right now. It is quite 
frankly, illegal under international law for those who have 
been designated as refugees to be refouled to their country of 
origin without their consent, particularly in places that are 
experiencing war. So this is now the reality.
    So my remarks regarding investing in education, in helping 
them integrate, in entering the labor force, but also in 
showing them that tolerance truly applies to them as well is 
going to have to be key. In terms of percentages, God forbid if 
50,000 Muslims in Europe were ISIL followers. We would have a 
completely different conversation right now. We are talking 
about tens. That is what we are talking about. That is the 
number of actual attacks in the tens.
    So it is clearly not 1 percent. It is .0001, whether here 
or abroad. So we have got to assess the problem for what it is 
and then when you look at that and compare it to the rise in 
hate crimes, assaults by neo-fascists, and neo-Nazi groups 
against Jews, against Muslims, and people of color, on both 
sides of the Atlantic, to me, that is a real worrying trend. 
And that is what I would really consider as an emerging threat 
as well.
    Mr. Rohrabacher. Thank you. Can you hear me? Let's just 
have Dr. Hanson's response.
    Mr. Hanson. I think it is a little bit disingenuous 
because----
    Mr. Rohrabacher. A little louder, Dr. Hanson.
    Mr. Hanson. Oh, I am sorry. We are the seeing the largest 
out migration of Jews since World War II to Israel, and there 
is a good chance that France within 10 years, if these rates 
continue, will be--there won't be a sizable Jewish population 
in France. It is not just terrorism because it is individual 
attacks on Jewish people who were obviously identified as Jews, 
Orthodox Jews. There are areas within Paris and I think we have 
all been to places in Rotterdam and Brussels where if you were 
to wear a yarmulke, you would be in danger of physical assault. 
But that is not really the catalyst for that out migration. It 
is a sense and my colleague here referred to it, there is a 
sense that the government has lost the confidence and tradition 
of Western values of tolerance and pluralism.
    We are not talking about chauvinism and prejudice and I 
think Representative Meeks made a good point. What we are 
talking about is the Western tradition that we all understand 
and tolerate differences in the periphery of culture, but we 
unite on democracy and constitutional government and 
transparency and these core Western values.
    Often in inexperience with this number of immigrants or 
maybe clumsiness or whatever the reason is, European 
Governments have not been able to address this problem in a 
liberal sense. They haven't been able to say we welcome you to 
come in here and it is a two-way street. If you give up some of 
your identity as all immigrants do and accept the core Western 
values and that means that if you see people of a different 
religion or your cultural traditions come in conflict with 
tolerance and plurality, you have to give that up and we can 
require that as the host country. But that hasn't been 
happening in Europe. And that means that we have to deal with 
it.
    The other thing is we would like to lecture Europe and say 
why don't you look at the United States and see how much a 
better job we do, but that is not the way nations, there is no 
international court of good manners. But what happens is we 
have to make the adjustments of this problem and this problem 
is going to affect Turkey's membership in NATO in the short 
term. It is going to affect whether--we can deplore racism all 
we want. I think we should, but there is a schism growing 
between Eastern and Western Europe and it is giving Vladimir 
Putin a lot of opportunities that we don't want. And we have to 
deal with the world as it is, rather than what we would like it 
to be.
    So I agree with my colleague on the left that we have to 
reach out, I mean literally the left, not the ideological left.
    Mr. Rohrabacher. See, I can say both of those here.
    Mr. Hanson. In a geographical sense, but what I am saying 
is we have to reach out and try to suggest politely that 
Europe, without being chauvinistic, might want to learn from 
the melting pot tradition. It has made us the most diverse 
country in the world. But in lieu that they might not do that, 
we have to take security precautions in the United States 
because I think the EU is seriously facing some existential 
crises that are going to affect the national security of our 
alliance.
    Mr. Rohrabacher. We are talking about Western civilization. 
We are talking about basically the melting pot theories. We are 
talking about how people--and nationalism. These are forces at 
play that are part of our analysis of what is going to happen 
and how to approach this moment in history. And I don't think--
this is my opinion that Western civilization has brought more 
freedom to more people. And the fact that freedom as we know it 
exists where Western civilization is the dominant force and not 
the Islamic world which if you look there I don't know any 
examples of the democratic institutions that we are talking 
about and we hold dear as Americans. Malaysia? Okay, there is 
one. Maybe Indonesia, maybe. But when I take a look at those 
countries that are the most Islamic in terms of actually taking 
their religion so seriously, there is no freedom in those 
countries.
    In terms of the melting pot, I don't see that you can have 
a melting pot with people who think that they will not meld in 
with the notions that other people have a right to worship God 
as they see fit. Because that is part of the melting pot theory 
and you do have, I have seen, various opinion polls taken in 
London, I believe it was, that suggested that those people, 
those Islamic people in London, well, of all the people who 
were saying no, people do not have the right to worship God as 
they see fit, if it is different than my faith, almost all of 
them are Muslims and almost none of them are Christians, saying 
no, if someone disagrees with me and my faith, they don't have 
a right to practice it. Almost all the ones who say well, and I 
don't believe--Mr. Meeks, just to be fair about it, I don't 
think the interpretation, I mean I know that we have been told 
that we have to assume that Islam is a faith of peace and it 
means--but Islam to some interpretations and correct me, you 
probably know more about this than I do, that Islam means 
submission. The more accurate interpretation is submission, not 
peace. And for those who don't submit, it is anything but 
peace. Is that right?
    Mr. Alzayat. Islam comes from the word salaam and that is 
peace.
    Mr. Rohrabacher. Okay. All right.
    Mr. Alzayat. In fact, you know, the greeting of Muslims is 
peace be upon you. It is not you shall submit to me.
    Mr. Rohrabacher. Okay, well, I am sure--salaam alaikum. 
Okay, well, I will have to admit that I just don't see any 
countries in the world right now cutting the heads off where 
Christians are cutting the heads off Muslims, but I have seen 
the opposite. And all I am saying here is you don't--obviously, 
you cannot put all Muslims in one category, but you can realize 
that when you see things happening, if there is a significant 
more of Muslims doing something that is something you don't 
want to happen in your society, like refuse to recognize 
somebody else's right to worship God as they see fit, well, 
then you should be aware of that. That should be something and 
also in second generation type of things where we are talking 
about, yes, we have had people in our own country and our own 
culture, Dr. Hanson, we have had our own people shooting kids 
up at schools that have nothing to do with Islam, but in terms 
of the Muslim population, the number of Muslims here and the 
number of actual situations where second generation Muslims 
have gone crazy, it is very demonstrable and I don't know 
another case like in San Bernardino where you had that.
    Dr. Hanson, basically, do you have second generation 
Christians coming here and doing that? I don't remember one 
case of that happening, where someone who has immigrated here 
from another country and is a Christian or as a Buddhist or 
some other religion, I don't know one case where the second 
generation Buddhist or second generation Christian went out and 
committed these mass murders. Maybe you can enlighten me.
    Mr. Alzayat. You have fourth, fifth, sixth generation 
Christians are committing it. So that is actually even more 
worrying.
    Mr. Rohrabacher. Well, that is skipping the question. Do 
you have--that is getting around the question.
    Mr. Alzayat. So when we have, for example, you know, well, 
by the way when we say a white Christian, no one knows how 
religious these people are or whether they are true believers. 
In fact, I doubt their faith if they were true Christians, they 
wouldn't do this. But that aside, you have statistically 
speaking far more violence by white Christian males in this 
country, statistically speaking, than any other group. Excuse 
me, I didn't interrupt you. And so what you have is right now 
amplification of a particular problem. It is a real problem. 
Terrorism in the name of Islam is a real problem and needs to 
be dealt with. We are not ignoring it, but what we are saying 
is that are we being fair to the religion and its adherence and 
people, the overwhelming majority of people who condemn it and 
are looking for real ways to address it.
    As Americans, we have to be honest about the numbers in 
this country in terms of the actual attacks that have happened, 
by which groups, and address them accordingly. From Oklahoma 
City to the mail bombs in Austin, just a few weeks ago, to 
Charlottesville, clearly other people--the Waffle House just a 
few days, to the horrible school shootings----
    Mr. Rohrabacher. And which ones of those were motivated by 
religion?
    Mr. Alzayat. They were all Christian.
    Mr. Rohrabacher. It wasn't based on anybody's religion.
    Mr. Alzayat. How do we know that the Muslims did it because 
of religion and not just because they were horrible people or 
they had mental illness?
    Mr. Rohrabacher. I think that there has been indication.
    Dr. Hanson, do you want to say something and then we will 
let Mr. Meeks go.
    Mr. Hanson. We don't know how disingenuous anybody is who 
commits a crime, but we can only go on the pretext of what they 
say and it is a matter of fact that violent incidents that have 
a political agenda, the perpetrators have identified themselves 
as self-appointed representatives of Islam and we don't have 
corresponding numbers. In a country that is about 80 percent 
self-identified as Christian, we don't have corresponding 
numbers of people who commit violence against people who are 
not Christian because of a Christian identity. That is just a 
fact.
    So to say----
    Mr. Alzayat. Oklahoma City is a political bombing.
    Mr. Hanson. No, it was not a Christian bombing.
    Mr. Alzayat. Political terrorist bombing, in fact.
    Mr. Hanson. It was not a Christian bombing against non-
Christians. When we go outside this building, most--you asked 
me not to interrupt. I would request the same courtesy from 
you. When we go outside this building, most of the people today 
who commit traffic accidents, most of the people who jaywalk, 
will be Christian. So that citation means almost nothing in a 
predominantly Christian country.
    What we are talking about is politically-motivated violence 
by people who self-identify, even if they misuse the religion, 
with a particular religion against people they feel are enemies 
of that religion.
    Mr. Alzayat. Well, that is Srebrenica.
    Mr. Hanson. I am talking about inside the United States.
    Mr. Meeks. Even in the United States, if I can----
    Mr. Alzayat. In Srebrenica, there were 10,000 Muslims who 
were butchered by fundamentalist Christians in Serbia in the 
name of religion.
    Mr. Rohrabacher. That is absolutely correct.
    Mr. Meeks. But even in the United States----
    Mr. Rohrabacher. Mr. Meeks.
    Mr. Meeks. Let me just say this because I have to go.
    Mr. Rohrabacher. Mr. Meeks has the floor.
    Mr. Meeks. Because even in the United States, the Ku Klux 
Klan identify themselves as Christians and they believe in the 
Bible, slavery, the slave masters said that they could enslave 
people in Christianity in the name of Christ. They believe that 
is what they did.
    You talk to white nationalists today, they will tell you 
they are acting in the same manner as the Bible calls for, that 
slavery is okay because it is in the Bible. I have met and 
talked to them. When I was raised, my parents were raised in 
the South and within my lifetime, a lot of what they have done 
was in the name of Christianity and justified what they did by 
being Christians.
    Now in response also though to this whole--I think Mr. 
Rohrabacher, what you just indicated in regards to this nation 
or that nation, you know, they don't have Western principles, 
etcetera, but let me just say this, even democracy, because for 
me and my father, didn't have democracy in America. So 
democracy that is something that is out there for most--I can 
recall being in South Carolina and my grandfather, my father, 
my mother, not being able to vote. I can recall being told I 
had to get underneath the bed as my grandfather got on the 
porch with a shotgun because folks who went to church on Sunday 
morning were now coming to get the so-called N people. This is 
in my lifetime that I have witnessed.
    And then you also talk about democracies in many of these 
other places, these places were places that were colonized by 
the West and brutal dictators were put in place to keep them in 
order. And this is less than 50, 60 years ago. They were 
colonies of Western democracies. And there were certain things 
that was done to put--and so some of what you talk was put into 
place to keep them in certain controls, whether you talk about 
the Middle East, whether you talk about Asia, whether you talk 
about Africa, all of these places were colonized by Western so-
called democracies.
    If you look at our country, 25, 30 years, 40 years, 50 
years, this was the wild wild West, all kind of craziness was 
going on. And so now we are 240 years later and there are still 
problems. So to go after some other country who has a new 
democracy, basically an infant, and try to compare it to the 
democracy of the United States, which still needs a lot of 
work, to me is like comparing apples to oranges.
    And what we need to be doing in one sense, people are--one 
of the things we have in common is our--we are all human. No 
matter what our race or our religion, we are human. And so we 
should be focusing on the human problems and people leave from 
one area to another because there is a human problem that 
exists. And so they all--that is why I used my family's 
experience as an example of people trying to go someplace else. 
My parents would never have left South Carolina if they had an 
opportunity there. Never would have left. I might have been a 
member from South Carolina instead of New York. But they left 
because they needed an opportunity. They went to a place that 
they thought they could have a better life for their family.
    So it is the same thing when you have a lot of 
individuals--they are not leaving Syria just because they want 
to leave Syria. They are leaving Syria for a reason. In fact, 
that was one of my questions. You know, sometimes it is easy 
for us to say go bomb. But there is consequences, because we 
don't look at the human lives that are affected by the bombing. 
The women and children and men who are innocent, who just want 
to--they leave because--they are not leaving because of some 
kind of religion or something, their homes are bombed. There is 
no place for them to go or to eat. They are starving. So if the 
bombing didn't take place, we wouldn't have had some of this 
situation.
    I mean one of the questions I had, you know, I was going to 
ask Mr. Alzayat, what role did the Russia bombing of Aleppo 
have in forcing migration of hundreds of thousands of people to 
Turkey? Did it play a role in that?
    Mr. Alzayat. It played a direct role. I was the outreach 
coordinator for Ambassador Robert Ford with the Syrian 
communities, really, activists, NGOs, and opposition members as 
well and our allies in Europe, particularly who were working on 
this. And as soon as the Russians started bombing, they were 
bombing--they were not bombing the terrorists. They were not 
bombing ISIL. They were not bombing al-Qaeda. They were bombing 
civilians who were opposed to Bashar al-Assad and what we term 
the Free Syria Army groups with all of their imperfections.
    And there was a direct correlation, so that when they were 
bombing Aleppo, they were bombing the areas around Homs in 
northern Syria and other areas. You saw massive movement. 
Hundreds of thousands of people pushing into Turkey. At the 
time, Turkey had almost close to 2 million people by then. And 
so they released the valves to let people go into Europe and 
that is the European migration crisis.
    In a sense, it was weaponized against Europe. That is what 
happened.
    Mr. Hanson. If I could make a concluding remark. I think 
the sins of mankind are what Representative Meeks enunciated. 
Every country has had that history, Western or non-Western.
    What is unique about the West it has a tradition of self-
critique, self-examination to rectify. The FBI destroyed the 
Klan in the 1960s, and so even Klanwatch and Southern Poverty 
Law Center now have branched out into other areas of hatred 
because the country healed itself. It had a debate. It found 
the right chords.
    And that process of self-introspection is why people from 
the Muslim world and the non-West come to the West. And so it 
is the height of irony that people are coming to the West for 
freedom and for diversity and self-critique and then when they 
arrive the host has lost the confidence of its own traditions 
to say to them, you came here for a reason. It wasn't just 
economic opportunity, you wanted respect as an individual, so 
all we require of you is that you adopt the customs and the 
traditions that are not perfect, but we don't have to be 
perfect to be good. And we have a unique tradition of self-
critique and change. That is all, I think, we are trying to 
suggest is that Europe's problem is that for some reason we 
don't have time to get into it, it has not been able to tell 
its immigrant population that you have to assimilate. Not 
change your food, your religion, your fashion, your cultural 
pride and traditions, but to accept a body of tolerance for 
everybody who believes, or looks, or acts in a different way. 
And I know that minority of immigrants may be small, but the 
pool is large enough that a very small minority can be very 
volatile. In a country like Europe, it doesn't have our 
experience with assimilation and immigration.
    Mr. Simcox. I will only take 2 minutes. I would just make 
the point, reiterate the point really that what applies to the 
U.S., doesn't necessarily apply to Europe. You have had--the 
melting pot in the U.S. has never worked in Europe in the same 
way. And so I would just encourage us not to view these two 
situations as entirely analogous.
    Of course, the situation in Syria, there is no doubt it is 
horrendous, horrendous what has happened in Syria. And there 
has to be a response from the international community. It is an 
irresponsible response, I believe, to say that Europe should be 
the home of millions of people, that it didn't have the chance 
to vet and somehow if Europe doesn't do that, it is not living 
up to its international commitment through somehow being 
unreasonable. This is a very, very difficult situation for 
Europe. Integration has been failing in Europe for some time. 
So adding millions more people into the mix is--obviously, the 
humanitarian impulse is there, but we can't wish away the 
problems that that sort of thing can create. So I would just 
encourage us all to be at least aware of that and not 
necessarily think of this as being just like the U.S. 
experience.
    Ms. Vrbetic. Thank you, Mr. Chairman. I would agree that 
the terror acts are committed by a small group of people, but 
what we are really talking about is what is the fact. And the 
fact on European societies and European politics has been 
tremendous. And this is what we worry about. How Europe is 
changing politically and the divisions within Europe and this 
is not good for Europe. Russia is certainly going to exploit 
us.
    And also, I wanted to say what I started talking, I think 
Dr. Hanson took it over, and this is really that the European 
societies need to have more confidence and make demands on the 
minorities, clear demands for integration, not for 
assimilation, but for integration and for respect of the 
liberal traditions and I think that would be also a big 
contribution to where it is having more cohesive societies in 
Europe and toward eliminating some of the problems we are 
talking about here.
    Mr. Alzayat. Clearly, this is a difficult issue. These 
societies are dealing with really frustrating dynamics. We are 
all humans and we hate change and we also don't like insecurity 
and Europeans have had to deal with that.
    The question is what is the best way to deal with it? And 
my argument is really based on our own experience here in the 
United States. Integration cannot be forced. When you try to 
force it, you get some of that toxicity. People have to want to 
be French, to want to be German, and most of them do. That is 
what I am trying to point out. Actually, most of them do. 
Ninety-four percent said they felt connected to the country. 
Seventy-five percent are intermingling with other religions. So 
I don't know about that whole statement that they are not doing 
that. They are. These are the facts.
    And how we approach the subject is extremely important 
because half of the Muslim population in Europe is under the 
age of 30. Forcing them will not work. It will not work. 
Engaging them, investing and educating them and removing 
institutional, discriminatory barriers that society, 
particularly, the educational system, encouraging them to be 
public servants, civil servants, diplomats, police officers, 
soldiers of their new country, is one of the best ways. Or let 
them do whatever they want. They don't have to be held to any 
higher standard, but it is that freedom to express their 
religiosity, as long as all of them support the tenets and the 
principles of the Western European order, freedom, respect of 
the individual, absolutely. It is what every human being 
irrespective of their religion deserves.
    And so I thank you for the opportunity today. You know, we 
are not going to resolve this today, but anything that will 
help people abroad and make us safe here, we are game for it, 
so thank you for inviting us.
    Mr. Rohrabacher. Well, I thank all of you and I will 
reserve the final statement for the chairman, but I did 
appreciate the lively discussions we had. Mr. Meeks and I are 
very close friends, so don't think that because he gets excited 
and I may get excited at times that we are anything but very 
good friends and respect each other's opinion.
    With that said, I think that as I say, the issues that are 
at the heart of this discussion has something to do also with 
how you value Western civilization and whether or not you 
believe that the influx coming in from the Middle East that is 
going into Europe today will in some way diminish Western 
civilization's influence on humanity. And I have to say that I 
think, I believe, that that is what is happening. No matter 
what you can say about vetting and what may be the goals, 
etcetera, that in the end what we will see is a diminishing of 
the influence on humankind of what we call Western 
civilization.
    I think that to a degree that you have got nationalism at 
play in Eastern Europe and elsewhere in Europe, it is that 
these people and like the Pole, for example, who are 
instrumental in defeating the Muslim advance into Europe and 
stopped them at Vienna, that is something they are very proud 
of there. And I can see where that is part of their framework, 
they say. We will defend Western civilization. And that is 
their nationalism, it is an expression of their nationals. And 
it is probably true with the Hungarians. And it is probably 
true with these other countries that we are talking about. 
Whether or not this influx from, in a very trying situation, 
where people desperately are trying to escape a war zone, 
whether or not that is something that is more important to take 
care of them than in other people's view than to preserve 
Western civilization only if that does not in some way threaten 
it. But I believe a lot of people do believe it is a threat and 
do believe that there will be major impact on their way of 
life. And I think that that is not an irrational thing, 
although I think you have made a really good case today. 
Seriously, you have done a really good job of presenting 
thoughtful challenges to what I just said which is fine. That 
is fine.
    And I will say that I do not think nationalism is a bad 
thing, but it can be a bad thing. Obviously, Adolph Hitler was 
a bad guy, but to the degree of nationalism is used as it is in 
the United States to say we are Americans and we believe in 
this, we believe in freedom, that is different. It is a 
different thing.
    And if we have people who, it is not racial, but people who 
come in that have another faith from what Western civilization 
has done for the United States which has been predominantly a 
Christian, Western-oriented population from early on. Yes, we 
stole it from the Indians. I admit it. Okay. There is no doubt 
about that. But by and large, the people who came to the United 
States were Christians, who came here seeking freedom, but they 
all weren't required, for example, where there were a lot of 
Catholics around, they didn't outlaw the eating the meat on 
Friday.
    When I was younger, I remember that the Catholics didn't 
eat meat on Friday. Now I understand that has been changed now, 
but I remember that very well. At no time did Catholics 
advocate that in their town that they not sell or eat meat on 
Friday. There is something there that indicates that when you 
are taking a poll and again, I wish I had a poll here to show 
you, that indicates that those people who adamantly believe in 
Islam are willing to say that other people should not have that 
right to make their choices, I think that is why you saw these 
beheadings, what happened in the Middle East.
    In terms of the number of people who are suffering there, a 
lot of it, you are right. It has nothing to do with Islam. It 
has everything to do with power grabs by power mongers.
    I will have to say this about Assad. I think he is no 
better or worse than the other dictators there, whether they 
call themselves kings or royal families or just the power 
brokers or whatever title they have given themselves, when 
someone challenges them, they slaughter the opposition. And 
that is one thing that I think is not acceptable. But it also 
may mean that we should not necessarily be jumping into that 
whole can of worms and thinking that we are going to start 
giving the orders and telling people how to solve the problem 
because I think it is going to be a long time before that 
problem is solved.
    And with that said, I am sorry for going on. I just want to 
thank all of you. I think there's been--we didn't come to any 
conclusion, but I think this has been very provocative today. 
So thank you and this hearing is adjourned.
    [Whereupon, at 3:56 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Material submitted for the record by the Honorable Dana Rohrabacher, a 
Representative in Congress from the State of California, and chairman, 
         Subcommittee on Europe, Eurasia, and Emerging Threats



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Material submitted for the record by the Honorable Dana Rohrabacher, a 
Representative in Congress from the State of California, and chairman, 
         Subcommittee on Europe, Eurasia, and Emerging Threats


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Material submitted for the record by the Honorable Dana Rohrabacher, a 
Representative in Congress from the State of California, and chairman, 
         Subcommittee on Europe, Eurasia, and Emerging Threats

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Note: The preceding document has not been printed here in full but may 
be found at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108229


   Material submitted for the record by Marta Vrbetic, Ph.D., global 
fellow, Global Europe Program, Woodrow Wilson International Center for 
                                Scholars

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]
</pre></body></html>
